<html>
<title> - EPA'S ROLE IN PROTECTING OCEAN HEALTH</title>
<body><pre>[Senate Hearing 111-1238]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 111-1238

                 EPA'S ROLE IN PROTECTING OCEAN HEALTH

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON OVERSIGHT

                                AND THE

                   SUBCOMMITTEE ON WATER AND WILDLIFE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 11, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
       
                               __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
22-443 PDF                      WASHINGTON : 2016                        
             
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>  
              
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                                 ------                                

                       Subcommittee on Oversight

               SHELDON WHITEHOUSE, Rhode Island, Chairman
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
KIRSTEN GILLIBRAND, New York         DAVID VITTER, Louisiana
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
                                 ------                                

                   Subcommittee on Water and Wildlife

                 BENJAMIN L. CARDIN, Maryland, Chairman
FRANK R. LAUTENBERG, New Jersey      MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                LAMAR ALEXANDER, Tennessee
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma (ex 
BARBARA BOXER, California (ex            officio)
    officio)
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 11, 2010
                           OPENING STATEMENTS

Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   153

                               WITNESSES

Stoner, Nancy, Deputy Assistant Administrator, Office of Water, 
  U.S. Environmental Protection Agency...........................     5
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Whitehouse.......................................    29
        Senator Inhofe...........................................    33
Jones, Jim, Deputy Assistant Administrator, Office of Chemical 
  Safety and Pollution Prevention, U.S. Environmental Protection 
  Agency.........................................................    40
Payne, Roger, Founder and President, Ocean Alliance..............    46
    Prepared statement...........................................    49
    Responses to additional questions from:
        Senator Whitehouse.......................................    51
        Senator Inhofe...........................................    53
Mitchelmore, Carys, Associate Professor, University of Maryland 
  Center for Environmental Science, Chesapeake Biological 
  Laboratory.....................................................    56
    Prepared statement...........................................    59
    Response to an additional question from Senator Whitehouse...    74
    Responses to additional questions from Senator Inhofe........    75
Waterston, Sam, Board of Directors, Oceana.......................    78
    Prepared statement...........................................    81
    Response to an additional question from Senator Whitehouse...   121
    Responses to additional questions from Senator Inhofe........   121
Everett, John T., President, Ocean Associates, Inc...............   123
    Prepared statement...........................................   126
    Response to an additional question from Senator Whitehouse...   141
    Responses to additional questions from Senator Inhofe........   142

                          ADDITIONAL MATERIAL

Letter to Senators Maria Cantwell and Olympia Snowe from the 
  Alaska Trollers Association et al., April 17, 2010.............   154
Commentary: Climate Change and the Integrity of Science, Science 
  magazine, May 7, 2010..........................................   161

 
                 EPA'S ROLE IN PROTECTING OCEAN HEALTH

                              ----------                              


                         TUESDAY, MAY 11, 2010

                               U.S. Senate,
         Committee on Environment and Public Works,
                                 Subcommittee on Oversight,
                        Subcommittee on Water and Wildlife,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Sheldon 
Whitehouse (Chairman of the Subcommittee on Oversight) 
presiding.
    Present: Senators Whitehouse, Cardin, Barrasso, and Udall.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. The hearing will come to order.
    I am delighted to be here with Senator Cardin, who is the 
Co-Chair of this hearing from his Subcommittee, and Senator 
Barrasso who is the Ranking Member on my Subcommittee. We are 
all here today to discuss an issue that is too frequently 
overlooked, considering its importance to our collective well 
being, and that is the health of our oceans.
    The oceans cover more than three-quarters of our globe and 
contain at least 70 percent of the Earth's biomass with 
potentially millions of species still to be discovered. The 
oceans sustain us with food, support human livelihoods, and for 
those of us who have had the opportunity to spend time around 
and on the oceans, they spark inspiration and wonder.
    Largely out of our sight, they play a critical role in 
balancing our Earth's ecosystems, but the oceans are under 
great stress from a variety of sources. Today, we will look at 
just two of the many changes affecting our oceans: the level of 
toxic chemicals we have released into our marine environment 
and the growing threat of ocean acidification.
    I would be remiss if I did not mention the massive oil 
spill taking place now in the Gulf of Mexico and extend 
condolences to the families of the crew members who died in the 
initial explosion. I applaud the Obama administration's rapid 
and comprehensive emergency response to what could become the 
largest ecological disaster this country has ever seen.
    However, a consideration of the damage that we are steadily 
wreaking on our oceans, even outside this present disaster, is 
long overdue.
    Today, I am pleased to have witnesses from the 
Environmental Protection Agency with us to discuss their 
agency's role in addressing the threat to our oceans posed by 
acidification and chemical poisoning. Mr. Jim Jones is here 
from the EPA's Office of Chemical Safety and Pollution 
Prevention, and Ms. Nancy Stoner is representing the Office of 
Water.
    Thank you both for being here today.
    Our second panel I will properly introduce later, is a very 
distinguished panel of scientists and advocates who have 
devoted themselves to understanding and protecting our oceans 
worldwide.
    Our oceans are the Earth's largest carbon sink. Over 30 
percent of mankind's total carbon dioxide emissions between 
1800 and 1995 have been absorbed by the ocean. But as our 
oceans absorb increasing quantities of carbon dioxide, it is 
basic chemistry that forces the changes in systems that allow 
our marine fauna and flora to be functional and productive.
    As the ecosystem changes, as the chemistry changes, the pH 
level of the ocean drops, and the water becomes more and more 
acidic. Even slight changes in ocean acidity can cause major 
disruptions to sea life to the point where marine mollusk 
larvae cannot form their shells; coral reefs bleach and die; 
and critical plankton cannot multiply. Since plankton formed 
the base of the oceanic food chain and coral reefs are critical 
nursery habitat for much marine life, ocean acidification could 
cause an unprecedented and unpredictable collapse of our ocean 
ecosystems.
    The National Academy of Sciences recently reported that the 
rate of change in ocean pH is faster now than at any point in 
the last 800,000 years. We do not yet know if species will be 
able to adapt quickly enough to survive this type of shift in 
their environment. Certainly, it is hard for species to survive 
in an environment that dissolves them.
    The second health threat we will be discussing today is the 
ever growing level of toxic chemicals in the marine 
environment. Even the remotest parts of the ocean now feel the 
touch of our industrialized society. Polar bears and seals in 
the Arctic and birds in the Galapagos, animals that would 
naturally come in contact with humans, all now contain traces 
of manmade flame retardants, PCBs and pesticides. We will hear 
today about an incredible voyage that documented contaminant 
levels in whales, including poisons referred to as persistent, 
bioaccumulative toxins, or PBTs.
    Since much of humankind sustains itself on the ocean's 
protein, we need to pay close attention to these accumulating 
toxics and the sentinel species that show the harm.
    While these chemicals can serve important purposes in our 
society, we must be alert to and protect ourselves against 
unintended harms as grave as these portend. For too long, we 
have taken our oceans for granted. We dump trash in the ocean, 
permit sewage to overflow across our coastal beaches into 
coastal waters, and allow toxic runoff to flow into our seas.
    Our unchecked carbon pollution absorbed by the ocean 
compounds the harm with changes to the very chemistry of the 
ocean ecosystem. I am pleased that the Environmental Protection 
Agency has recognized these threats and is working 
cooperatively with other Federal agencies to address them. The 
Obama administration has helped with the establishment of its 
Ocean Policy Task Force, which for the first time in our 
Nation's history is looking comprehensively at the myriad uses 
and threats to our oceans.
    I look forward to working with the Administration and with 
my colleagues on these efforts.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I am 
pleased to be with you today for this first hearing this year 
of the Subcommittee on Oversight, along with the Subcommittee 
on Water.
    I want to thank the witnesses for being here today because, 
of course, ocean health is vitally important, and we need to 
develop effective responses and tailored solutions to meet the 
challenges that all of us face.
    With regard to ocean health and ocean acidification, I have 
concerns, Mr. Chairman; we must guard against using current 
laws as they were never intended to be used. A recent article 
on March 12 in the New York Times was entitled, Some See Clean 
Water Act Settlement Opening New Path To Greenhouse Gas Curbs.
    I ask unanimous consent, Mr. Chairman, to put that article 
from the New York Times in the record.
    Senator Whitehouse. Without objection.
    Senator Barrasso. Thank you, Mr. Chairman.
    [The referenced article was not received at time of print.]
    Senator Barrasso. The article goes on to state that the EPA 
reached a deal with the Center for Biological Diversity to 
``begin a rulemaking aimed at helping States identify and 
address acidic coastal waters.'' The Times states that the 
effort could lead to the first Clean Water Act effort to 
protect acidifying marine waters, a move the Center for 
Biological Diversity sees leading to restrictions on carbon 
dioxide emissions. A spokesman for the Center for Biologic 
Diversity was quoted as saying ``if we can use every tool in 
the box, the Clean Water Act, the Clean Air Act, new climate 
legislation and State efforts to address it,'' meaning climate 
change, he says, ``all those things are important.''
    I think, Mr. Chairman, that statement highlights the goal 
of these groups to regulate everything Americans do from 
heating their homes to driving their kids to school. And to me 
this presents considerable risk to millions of good paying jobs 
in the energy and manufacturing sectors of our Nation. I worry 
that this is another attempt to enact a climate change regime 
without one single vote of this Congress.
    So we should not use the Clean Water Act to regulate 
climate change, just as I believe we should not use the Clean 
Air Act, NEPA, the Endangered Species Act or any secretarial 
order from the Secretary of Interior to regulate climate 
change.
    Mr. Chairman, I think we ought to enact true preemption, as 
Senator Voinovich has proposed to do. Take all these proposals 
to regulate climate change through regulation off of the table, 
and then let us decide our clean energy future with a vote of 
this Congress, a future where we make energy as clean as we 
can, as fast as we can, without raising prices for American 
families, while providing for a strong economy and more jobs.
    Mr. Chairman, we have a number of issues that remain on the 
table with regarding to holding oversight hearings in the 
future. There are multiple topics that need to be explored by 
this Committee. So I look forward to future oversight hearings 
to address these topics.
    As you and I have discussed, Mr. Chairman, as a result of 
the tragedy of the oil spill in the Gulf, our full Committee 
will be meeting here this afternoon with a hearing. I am also 
on the Energy Committee, and we have a full committee meeting 
this morning to also ask questions and look into that.
    So with that, Mr. Chairman, thank you and look forward to 
the testimony.
    Senator Whitehouse. Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Chairman Whitehouse, thank you very much. 
When you represent the State of Rhode Island or the State of 
Maryland, you understand how important our oceans are. I thank 
you very much for holding this hearing.
    You have been planning this hearing for some time, so I 
first want to acknowledge your patience and perseverance in 
bringing us to this, and bringing together I think just an 
excellent two panels of experts in this area that I think can 
help us try to understand what we need to do in the oceans.
    It was Joseph Conrad who wrote in The Heart of Darkness, 
``There is nothing mysterious to a seaman unless it be the sea 
itself.'' And I think that speaks to it. We don't see the 
pollution. We don't see the damage that we are causing to our 
oceans. It is a vast area that is mysterious to all of us.
    But the two issues that you raised in your opening 
statement, ocean acidification and toxic chemicals, are having 
a major impact on the quality of our oceans and I would say our 
way of life. I think it is important that we establish a 
hearing record, as we will today, as to the impact of both of 
these areas.
    On ocean acidification, I just really want to mention the 
Chesapeake Bay for one moment, if I might. The Chesapeake Bay 
today, we all know that the issues concerning global climate 
change and the impact it is having on our sea grasses, our sea 
level increases, the warming of the ocean itself, all that 
having an impact on the health of the Chesapeake Bay and on the 
importance of that to our economy and to our way of life.
    Let me just talk about the oyster for one moment. The 
oyster is critically important to cleansing the bay. As you 
know, it serves in the ecosystem as an extremely valuable 
commodity. It is not only its economic impact as a crop, but it 
is also its impact as a cleansing agent in the bay.
    Well, we are 1 percent of our historical level of oysters 
in the bay. And we believe one of the reasons is the increase 
acidification, because it affects the development of the oyster 
itself, its shell. So this is an issue that we need to deal 
with.
    I would give you just one example. In regards to the toxic 
elements, you have listed several that are critically 
important. I would just like to add one more because I think it 
is relevant to your introduction, that we have to note what is 
happening in the Gulf of Mexico today. It is clearly going to 
have an incredible impact on the Gulf and on the Atlantic 
Ocean.
    And one of the toxins that are being now put into the bay, 
because we have no choice, is the dispersing agents. We have no 
choice because we have to prevent the oil from coming to the 
surface and perhaps getting into the currents or getting onto 
the beaches and destroying wetlands and destroying wildlife 
that is critically important to our environment. But instead we 
are putting a different toxic in, a dispersing agent that we 
don't exactly know what it is going to cause. But we do know 
that it has an impact.
    We also know that the oil will then end up on the ocean 
bottom. It doesn't disappear. It just disperses to the bottom. 
What impact will that have on our environment?
    So today America's energy policy continues to rely on fuels 
that endanger our air, our seas and enrich our enemies. Mother 
Nature will continue on no matter decisions we make or what 
energy policy we adopt. But I think the challenge to us is will 
we still have vibrant fisheries and beautiful beaches? And that 
is an issue that I think should be of concern to all of us. 
Will we still have healthy wetlands and bird populations? Will 
our economy as well as our environment suffer irreparable harm? 
We are talking about jobs. We are talking about the economic 
impact that a clean ocean has on our ability to drive our 
economies.
    And will the world that we pass on to our children and 
grandchildren have all the wonders that we experienced in our 
childhood? These are the challenges we have.
    Mr. Chairman, the Environmental Protection Agency has a 
critical role to play in helping fill the gaps in our knowledge 
and in protecting the oceans from harm. I look forward to 
hearing from today's witnesses as we develop I hope a strategy 
to deal with these issues.
    Mr. Chairman, I would ask that my entire statement be made 
part of the record, and I look forward to hearing from our 
witnesses.
    Senator Whitehouse. Without objection, it will be.
    [The prepared statement of Senator Cardin was not received 
at time of print.]
    Senator Whitehouse. We will turn to Ms. Stoner.
    Welcome. Thank you for being here.

  STATEMENT OF NANCY STONER, DEPUTY ASSISTANT ADMINISTRATOR, 
     OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Ms. Stoner. Good morning, Chairman Whitehouse and Chairman 
Cardin. I am Nancy Stoner, Deputy Assistant Administrator of 
the Office of Water at the U.S. EPA. With me today is Jim 
Jones, Deputy Assistant Administrator of the Office of Chemical 
Safety and Pollution Prevention. We thank you for the 
opportunity to speak with you today about EPA's role in 
protecting ocean health, especially as it relates to ocean 
acidification and persistent bioaccumulative toxic chemicals, 
or PBTs.
    The National Research Council of the National Academies 
recently reported that ocean chemistry is changing at an 
unprecedented rate and magnitude due to human made carbon 
dioxide emissions, but we don't yet fully understand the 
specifics of how changes occur, the scope of what is affected, 
what the effects mean, and what actions might help to prevent, 
abate or control them.
    Similarly, we know that toxics adversely affect the water, 
sediment and living organisms of the marine environment, but we 
don't yet fully understand how most chemicals, individually or 
collectively, affect organisms or ecosystems or how the 
degraded or metabolized products of those pollutants affect the 
same.
    Ocean acidification refers to the decrease in pH of the 
Earth's oceans caused by the absorption of carbon dioxide from 
the atmosphere. The National Research Council has concluded 
that ``Unless anthropogenic CO<INF>2</INF> emissions are 
substantially curbed or atmospheric CO<INF>2</INF> is 
controlled by some other means, the average pH of the ocean 
will continue to fall.''
    EPA already is taking action to regulate and control the 
root cause of ocean acidification, fossil fuel CO<INF>2</INF> 
emissions that are also the main driver of climate change. As 
you are aware, EPA recently concluded under the Clean Air Act 
that these greenhouse gases endanger the public health and 
welfare of current and future generations.
    Research over the last 10 years indicates that the 
implications of CO<INF>2</INF> absorption for oceans and 
coastal marine ecosystems are potentially very serious. Marine 
calcifiers, including corals and shellfish, depend on calcium 
carbonate to produce and maintain their shells, skeletons and 
other protective structures. Ocean acidification reduces 
calcification to create such structures and increases 
dissolution of them. These organisms then have less energy 
available for feeding, escaping predators and reproduction, 
leading to decreased survival.
    Many of these creatures form the basis of ocean food webs 
and provide us with extensive resources and vital ecosystem 
services. For example, a NOAA-supported study in 2003 estimated 
that Florida reefs have a capitalized value of more than $7.6 
billion per year. EPA and other Federal agencies are engaged in 
a variety of research and monitoring efforts that contribute to 
our understanding of the effects of ocean acidification.
    For example, EPA is working to value reef services, 
focusing on recreation, tourism, fisheries, shoreline 
protection, marine natural products and ecological integrity. 
EPA recently published a Federal Register notice seeking 
comments on how to address ocean acidification under the Clean 
Water Act Impaired Waters Program. This notice included a 
request for recommendations on developing total maximum daily 
loads or pollution budgets for waters impaired by ocean 
acidification. EPA will complete a memorandum by November of 
this year that describes how the agency will approach ocean 
acidification under this program.
    Also, after reviewing a wide range of information, EPA 
recently decided against revising the marine pH criterion for 
aquatic life under the Clean Water Act. This decision was based 
on the fact that in most coastal regions, the data that are 
available to characterize daily and seasonal variability are so 
limited that short-term trends in carbon system parameters and 
pH cannot be determined.
    I will now turn it over to my colleague, Jim Jones, who 
will address toxic chemicals in the marine environment.
    [The prepared statement of Ms. Stoner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
STATEMENT OF JIM JONES, DEPUTY ASSISTANT ADMINISTRATOR, OFFICE 
OF CHEMICAL SAFETY AND POLLUTION PREVENTION, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Jones. Thank you, Nancy.
    And thank you, Chairman Whitehouse and Chairman Cardin.
    I am Jim Jones, Deputy Assistant Administrator for the 
Office of Chemical Safety and Pollution Prevention at EPA. Our 
office is responsible for implementing the Toxic Substances 
Control Act, or TSCA, as well as the pesticide laws FIFRA and 
the FFDCA. We also implement the Pollution Prevention Act.
    As you know, persistent bioaccumulative toxic chemicals, or 
PBTs, are long lasting substances that build up in the food 
chain, and at certain exposure levels may be harmful to human 
health and the environment. They do not readily break down, so 
when they are released to the environment they remain 
essentially unaltered for months or years.
    With continued use and release, PBTs buildup in sediments 
and soil. Their concentrations increase as they go up the food 
chain from sediment to aquatic insects to fish, for example. It 
is this concentration in the food chain which under certain 
circumstances can cause adverse effects in humans or wildlife.
    As part of Administrator Jackson's comprehensive effort to 
strengthen EPA's chemical management program and assure the 
safety of chemicals, EPA has released five action plans which 
outline a range of actions under TSCA that the agency intends 
to take to address concerns with these chemicals. Three of 
these action plans for PBT chemicals: short-chain chlorinated 
paraffins, or SCCPs; perfluorinated chemicals; and 
polybrominated diphenyl ethers, or PPDEs as they are commonly 
known. SCCPs and PPDEs are known to be found in marine mammals.
    Taking action under TSCA has proven to be very difficult. 
The agency has the burden of demonstrating risk. Requiring 
manufacturers to generate data is time consuming and 
inefficient. The statute creates legal and procedural hurdles 
that have stymied the agency from taking quick and effective 
regulatory action. For these reasons, the Administration 
believes it is important to work together with Congress and all 
interested stakeholders to quickly modernize and strengthen the 
tools available in TSCA to increase the American public's 
confidence that chemicals used in commerce are safe.
    Last September the agency released a set of essential 
principles for reform of chemicals management legislation to 
help inform these discussions, and we look forward to working 
with Congress on updating TSCA.
    Thank you for the opportunity to describe EPA's role in 
protecting ocean health. We ask that our full written statement 
be made a part of the record of this hearing, and we would be 
happy to answer any questions that you may have.
    Senator Whitehouse. Without objection, the statement will 
be made part of the record.
    I appreciate it. I thank you very much for being here.
    Ms. Stoner, where do you think would be the most helpful 
places that EPA could do or support research to begin to better 
identify the acidification trends and the likely effects of 
those trends on the marine ecosystem?
    Ms. Stoner. Senator, the EPA is engaged in research now 
with the Interagency Working Group on Ocean Acidification. So 
we are coordinating our research with a variety of Federal 
agencies. We are currently working on a research plan for the 
Federal Government as a whole that will enable us to ensure 
that we target those efforts to where we can achieve the most. 
We are looking both at what is happening in the water in terms 
of ocean acidification and changes in chemistry.
    We are also looking at how that change in chemistry affects 
a variety of different kinds of organisms, including coral and 
looking at coral reefs and shellfish. As you noted in your 
opening remarks, there are significant concerns about shell 
formation associated with the ocean chemistry changes 
associated with ocean acidification.
    Senator Whitehouse. Let me show a photograph that we have 
of a shell over 45 days of exposure to the surface sea water at 
pH levels that are expected in 2100, perhaps my children's 
lifetimes if not mine. And obviously that shell is degrading 
and dissolving pretty rapidly, and it makes it very challenging 
for that species to live, again, in an environment in which it 
is soluble.
    And to the extent that some of these species are basic 
bottom of the food chain core species for the rest of the 
marine ecosystem, it portends potentially very significant 
adverse results. Are you fully comfortable and confident that 
responding to that is something that is within EPA's 
jurisdiction, even though there may not be an immediate human 
health effect?
    Ms. Stoner. Senator, as I mentioned, we are looking closely 
at those issues. The two related points, the saturation rate of 
calcium carbonate minerals and then the dissolution of the 
shell, both weaken the shell, and we are looking at both of 
those now.
    We have not yet developed a plan for how to address this. 
We are actually looking at how individual species as well as 
populations are affected, and as the National Academy referred 
to it, who the winners and losers might be; how it might affect 
the ecosystem as a whole.
    So we are in the process of developing our approach and our 
plan based on acquiring the best science.
    Senator Whitehouse. But you are comfortable that the EPA's 
current statutory authority allows it to consider these kinds 
of harms in its analysis of what parts of the environment need 
to be protected. You don't feel a jurisdictional gap when you 
are dealing with this?
    Ms. Stoner. The jurisdiction of the Clean Water Act goes 
out to 3 miles. So we actually don't have jurisdiction out in 
the middle of the ocean to address this. And the tools that we 
have under the Clean Water Act don't necessarily reach all of 
the sources.
    Senator Whitehouse. How about the Clean Air Act?
    Ms. Stoner. Yes, sir. I am talking about the Clean Water 
Act.
    Senator Whitehouse. I know.
    Ms. Stoner. Right.
    Senator Whitehouse. Let me ask you, that takes you out 3 
miles. Where does the Clean Air Act take you, if it turns out 
that there is damage being done as a result of emissions that 
you regulate?
    Ms. Stoner. Right, yes, sir. And so the main source is 
carbon dioxide emissions which we are working to regulate under 
the Clean Air Act. The Clean Water Act does not directly enable 
us to do that, although it would enable us to identify that as 
the source of the problem, for example in a pollution budget or 
total maximum daily load.
    Some of our experience with mercury pollution is 
instructive here. That, again, is a water related problem, a 
fish tissue problem, but it comes mostly from air emissions.
    Senator Whitehouse. And Mr. Jones, let me ask you a similar 
question. Very often when we have hearings about TSCA, the 
targeted species is humankind, and that is our constant and 
primary target. But when you do see the kind of information 
that Dr. Payne will be providing later, and I think you have 
seen it in his pre-filed testimony about the extent to which 
marine mammals have been poisoned by regulated chemicals that 
have gotten out into the oceans and concentrated in them at the 
top of the food chain.
    Do you have any restrictions in EPA's ability to take 
action off of that evidence in terms of putting regulatory 
restrictions on various chemicals? Can you make regulatory 
decisions based on that information?
    Mr. Jones. That information can be considered in our 
regulatory determinations. As we have stated before to this 
Committee, TSCA is a difficult statute to operate within. 
However, while we are working with Congress to reform TSCA, we 
are pursuing assessment and regulation of several persistent 
bioaccumulative toxins, in particular the ones that I mentioned 
here earlier that have direct impact that we know as it relates 
to the marine environment, the short chain chlorinated 
paraffins and the PBDEs.
    So we are considering their impact on the marine 
environment. One of the other action plans that we are looking 
at, bisphenol-A is related to its aquatic impacts, particular 
in estuarine environments.
    So, it is an area that we do focus on, and we are going to 
try to use the tools that we have to protect not only the 
terrestrial environment and human health, but also the marine 
environment.
    Senator Whitehouse. Very good.
    Senator Cardin.
    And I would like to welcome Senator Udall who has joined 
us.
    Senator Cardin. Thank you.
    And let me thank our witnesses for their testimony.
    I guess I want to start with I strongly support EPA using 
the authorities it has under both the Clean Water Act and Clean 
Air Act to deal with the pollutants entering our ocean and the 
impact it has on not only the environment, but I think public 
safety and public health. So I strongly support that.
    My question is, and Ms. Stoner, in your original statement 
you say you don't fully understand, which I understand that you 
don't fully understand the impact here.
    How do we improve the research that is being done? What 
tools do we need so that you have the scientific information 
necessary to support the regulatory efforts that you are 
making? You are going to be challenged every step of the way. 
What do we need to do in order to get the best science to make 
the right judgments?
    I want to make sure that the regulatory framework is the 
most effective framework, not just because we know there is a 
problem and want to do something about it, but we have the 
scientific information to support that and the remedies and 
regulations that you are seeking are aimed at reducing the 
problem.
    Ms. Stoner. Thank you, Senator. Of course, we are doing the 
best we can with the resources we have, in coordination with 
the other Federal agencies. There are additional research 
needs. This is a worldwide problem, of course, and there are 
coral reefs in various places in the U.S. and Puerto Rico, 
Florida, Hawaii and so forth that studying those reefs in 
particular could be helpful in how they are being affected.
    There are lots of different kinds of species and 
populations that are affected, crustaceans and mollusks, for 
example. And there is lots of additional science that could be 
done that could help inform these decisions.
    Senator Cardin. I just urge you to let us know if you need 
additional tools from Congress in order to be able to deal with 
the scientific information necessary. We understand this is 
international, but the United States has to be in the 
leadership here. Other countries are doing a much more 
aggressive job than we are doing, so I think we could learn 
from each other. But if there additional tools you need from 
Congress, I think we need to know that in order to support your 
decisions.
    Mr. Jones, let me go to the issue I raised in my opening 
statement, the use of these dispersants to deal with the tragic 
accident in the Gulf of Mexico. Dispersants have been used in 
the past. EPA has been asked for its judgment on that and has 
given, I believe, an OK, recognizing the relative risk. There 
is a risk involved in whatever we do, and you try to minimize 
that.
    Can you, though, tell us the process EPA went through to 
allow the dispersants to be used? And what risk factors are 
present in the use of the dispersants?
    Mr. Jones. Yes, Senator, thank you. Let me first say that 
the agency's response to this and basically any other emergency 
along these lines is directly managed by the Office of Solid 
Waste and Emergency Response. My colleague Nancy and I are in 
offices that provide support to that office and we have been 
communicating with them. So we are generally aware of the 
agency's response to the BP oil spill, but we may lack some of 
the specificity.
    So with that preface, let me say that the first thing is 
that before any dispersants can be used in this context, it has 
to be on an approved list in our national contingency plan, 
which is a statutorily created plan that governs the use of 
remediation approach such as the use of dispersants. So the 
chemical being used in this context had already been approved 
for that purpose.
    To get on to that list, the agency needs two kinds of 
information: information with respect to its efficacy--will it 
do what it is supposed to do, in this case disperse the oil? 
Second, marine related hazard data is required. So the chemical 
that is being used right now had both demonstrated 
effectiveness as well as the appropriate toxicity data for use 
on the surface of the ocean.
    There has been an interest in pursuing whether or not this 
chemical may be effective below surface, and in that context 
the agency has authorized the manufacturer to test it for that 
purpose. So we have authorized just three tests to see whether 
or not it meets these two criteria: Is it effective at 
dispersing the oil? And what is the toxicity in that context? 
We have made it clear that we will not authorize the use in a 
sub-surface context until successful tests have been completed.
    Senator Cardin. But it is toxic? It is a toxic?
    Mr. Jones. The chemicals that are being used have toxicity 
associated with them. And I think as the agency has tried to be 
very clear, this is about an environmental tradeoff that we are 
making.
    Senator Cardin. And I support that. I am not challenging 
that. But we need to know the damage that is being caused as a 
result of the choice that has been made. It may be less damage 
than otherwise would have been caused, but it is creating a 
different set of factors. And I think it is important that we 
understand that, and that the public understands that.
    One of the concerns I have is that by dispersing, it won't 
be seen as much, and therefore the public might think damage 
hasn't been done. But in reality damage has been done. It has 
been done to the water quality as a result of the toxins being 
placed in the ocean. And second, the oil still is there. It is 
not being eliminated. It goes to the ocean bottom, as I 
understand, which has its own set of problems.
    Mr. Jones. That is correct, Senator. I think the agency is 
trying to do its best to make sure people understand this is 
about an environmental trade off that is being made. Damage has 
been done. That is absolutely correct.
    Senator Whitehouse. Senator Udall.
    Senator Udall. Thank you very much.
    I first of all want to thank Chairman Whitehouse and 
Chairman Cardin for their effort. They, as I have observed 
here, have been real champions on this issue. I know Senator 
Whitehouse has additional spurring effort from the home front. 
His wife is a Ph.D. scientist in this area. I have been on 
trips with him where I have learned a lot from her. I hope that 
she is watching today and seeing that you are doing a good job 
here, Sheldon, on this front.
    Let me first of all follow up a little bit on what Senator 
Cardin asked about. When you talk about research, I think the 
first issue is do you have any idea how much we are doing in 
this area in dollar amount across the Federal Government to 
look specifically at the acid buildup in the ocean?
    Ms. Stoner. Senator, I know that EPA's budget for 2009 for 
research on ocean acidification was about $2 million.
    Senator Udall. Which isn't much, right?
    Ms. Stoner. It is a relatively small amount. This is a new 
area of research area for us, but that is what we are doing in 
2010. I don't have handy the budget for the entire Federal 
Government. We can get back to you.
    Senator Udall. OK. That would be great. That would be 
great.
    Do you have any numbers on the worldwide effort? Is there 
any cooperative effort in terms of sharing research, pooling 
money, trying to do that? One of the reasons I ask that is I 
think it is so important when we get into these scientific 
issues that we share he science and that we build the consensus 
through sharing the science. And I am wondering, either one of 
you, what is happening there on that front?
    Ms. Stoner. Senator, first of all, I got the number on the 
Federal budget for direct monitoring, which is $1.426 million 
in 2008 and $1.289 million in 2009.
    Senator Udall. And that is specifically targeted to the 
buildup of CO<INF>2</INF> and acidification of the ocean?
    Ms. Stoner. Yes, sir. It is direct monitoring of ocean 
chemistry and biological impacts associated with ocean 
acidification. And that is EPA, the Marine Minerals Service, 
NASA, NOAA, NSF, and USGS. And we are all working together 
through the Ocean Acidification Task Force. We are also 
coordinating with other research entities across the world 
through that effort.
    So it is a coordinated effort. It is a new effort under the 
new law. So we are developing a research plan now.
    Senator Udall. On these countries that are cooperating 
around the world, is there participation by most of them? Or is 
this just the countries that are on the ocean? What can you say 
about that?
    Ms. Stoner. My guess is that coastal and ocean countries 
are more involved, but I don't know the full extent.
    Senator Udall. Yes. Now, you also mention in your testimony 
the global nature of the toxic chemicals that are released into 
the oceans and the need for ratification of global treaties 
such as the Persistent Organic Pollutants Treaty, the POPs 
Treaty as it is known. Can you describe some of the specific 
chemicals that these global treaties look to curb on a global 
basis?
    Mr. Jones. Yes, sir. I will answer that. Many of the 
original chemicals that were listed on the treaty are 
chemicals, for example, the organochlorine pesticides which 
have largely been regulated in the United States. Well, they 
have been totally regulated in the United States.
    Some of the more recent additions to the list include 
chemicals that are on our list of action plans, such as the 
short chain chlorinated paraffins and the PBDEs. So we are 
beginning to see chemicals being listed without the U.S. 
participation in those treaties, which have yet to be fully 
evaluated and regulated in this country.
    Senator Udall. So what you all are urging is that we ratify 
these treaties and move forward with the countries around the 
world, and that we are slow to do that at this point.
    Mr. Jones. That is correct. There are problems with not 
being at the table, one, because there may be very important 
uses that we would like to see maintained because they are very 
important to the country, and so our voice is not being heard 
there. Also it is not allowing us to be global leaders on the 
issues of those chemicals for which we think quick action is 
necessary.
    Senator Udall. Thank you both for your testimony. Very good 
panel, and once again, I appreciate the hard work of the two 
Chairmen on this.
    Senator Whitehouse. Thank you, Senator Udall.
    I thank the members of this panel for coming forward. I 
think you have heard from all of us a cheering and enthusiastic 
response to your work. As Senator Cardin suggested, if you feel 
you need additional resources or authorities, we would be only 
too delighted to hear from you about how to supplement both of 
those. Thank you very much.
    We will excuse this panel and take a 2-minute recess while 
we call up the next panel and get people squared away.
    [Recess.]
    Senator Whitehouse. All right, I think what we will do, 
first of all, we will come back to order.
    I think what I will do is I will introduce each witness and 
ask them to give their opening statements, and the hold 
questions until all four statements have been given, and then 
we can have more open season, more robust discussion.
    So I will begin just going across the panel here with Dr. 
Roger Payne. He is the Founder and the President of Ocean 
Alliance, a nonprofit organization dedicated to the 
preservation of whales and all marine life. Many of us remember 
his discovery that humpback whales sing to one another, and the 
LP, if that doesn't date me too badly, that resulted from that 
discovery.
    Dr. Payne has led over 100 expeditions to all oceans and 
studied every species of large whale in the wild. He pioneered 
many of the benign research techniques now used throughout the 
world to study free swimming whales, and has trained many of 
the current leaders in whale research. He publishes technical 
articles and writes for general audiences. In one of this three 
articles in National Geographic magazine contained a record of 
whale sounds for which 10.5 million copies were printed, still 
the largest single print order in the history of the recording 
industry.
    His publications include the book Among Whales and three 
recordings, Songs of the Humpback Whale, the best selling 
natural history recording ever released; Deep Voices; and with 
musician Paul Winter, Whales Alive. He is a writer and 
presented for television documentaries and co-writer and co-
director of the IMAX film Whales.
    Payne's honors and awards include a knighthood in the 
Netherlands, a MacArthur Fellowship, the similar Lyndhurst 
Prize Fellowship, and the Joseph Wood Krutch Medal of the 
Humane Society of the U.S.
    We are delighted to have him here, and thank you for your 
testimony. It is also a banner day because today he is 
announcing and releasing the report of his latest study. So 
thank you, Roger Payne.

STATEMENT OF ROGER PAYNE, FOUNDER AND PRESIDENT, OCEAN ALLIANCE

    Mr. Payne. Thank you very much.
    The oceans are downhill from everything on land, and that 
means that everything that can be moved by wind or water 
eventually ends up in the sea where ocean currents then spread 
it around the world. Some of the most insidious things that 
reach the sea are the chemicals humans synthesize, and through 
use release into the environment.
    Such compounds have such unmemorable names as 
polychlorinated biphenyls, polybrominated diphenyl ethers, 
dioxins, furans, phthalates, bisphenol-A and so on. 
Collectively, these chemicals threaten our future. Other 
contaminants have more familiar names like chromium, mercury 
and lead.
    Eighteen years ago I wanted to know how extensive oceanic 
contamination had become, and I decided that my institute 
should establish a global baseline for many pollutants by 
measuring their worldwide concentrations in sperm whales. We 
chose sperm whales because they occur worldwide and live about 
as high on food pyramids as humans do. Seeing how badly sperm 
whales are poisoned tells you how badly you are likely to be 
poisoned.
    To this end, we conducted the voyage of the Odyssey, a 5-
year circumnavigation of the globe during which we collected 
955 samples from sperm whales, giving us the first worldwide 
sample set from a single species, the first trip to measure how 
badly polluted all oceans are with synthetic chemicals and 
toxic metals.
    Our samples contained some of the highest levels of 
pollutants ever found in any free ranging animal. The very 
highest readings were from whales that we sampled in some of 
the remotest regions of the world. In short, the oceans are 
polluted to a far worse degree than anyone had imagined.
    For the moment, consider just one of the many pollutants we 
studied, chromium. The film Erin Brockovich was about chromium 
poisoning. Chromium is a known human carcinogen with the 
ability to break and destroy DNA. With our partner, Dr. John 
Wise at the University of Southern Maine, we found levels of 
chromium in sperm whale skin tissue that are on a par with 
chromium levels found in the lungs of industrial workers who 
died of chromium induced cancer, workers with decades of 
exposure to chromium from working in factories that made 
chromium compounds. Our results show that whales are 
experiencing similar, even higher levels of exposure.
    We also tested the effects of chromium on sperm whale cells 
grown in laboratory, and found that chromium damages whale DNA 
just as it does human DNA, suggesting that chromium poses 
problems to whales that are growing and developing. The most 
polluted whales lived in waters around Kiribati in the Central 
Pacific, about as far as you can get from industrialization and 
big agriculture on this planet.
    This whale contained a concentration of chromium 183 times 
higher than is needed to break chromosomes. In short, we have a 
major pollution problem. We are poisoning the entire ocean 
ecosystem. We cannot afford any longer to expect the ocean to 
be able to take what we are putting into it. We are poisoning 
and chemically sterilizing the marine world.
    Seafood is the principal source of animal protein for over 
1 billion people. If we keep polluting, humanity will 
eventually lose access to a key food resource. The prospect of 
over 1 billion people losing their principal source of meat 
because it has become too contaminated with pollutants for safe 
consumption will be one of the most serious public health 
crises humanity has ever faced.
    In spite of the obvious seriousness of this problem, it is 
not on any government's radar. Before Ocean Alliance circled 
the globe sampling sperm whales, no one had measured how 
polluted ocean life had become globally. However, if we address 
this problem vigorously, it is not too late.
    We offer the following policy recommendations. One, we need 
global legislation to stop industries from discarding harmful 
substances into the sea or the air, which simply carries them 
into the sea.
    Two, we need to thoroughly test chemicals for safety. 
According to a major report released last Thursday by the 
President's Cancer Panel, a top policy voice on cancer, ``Only 
a few hundred of the more than 80,000 chemicals in use in the 
United States have been tested for safety. Many known or 
suspected carcinogens are completely unregulated.''
    Three, when we have evidence that chemicals damage 
wildlife, we need to apply the precautionary principle and get 
them out of circulation for the sake both of the wildlife and 
of humans that are most at risk, children and fetuses.
    Four, we need to allocate funds specifically aimed at 
studying and reducing ocean pollution. There are next to no 
Federal funds available to measure ocean pollutant levels. The 
usual Federal agencies don't fund such studies, and most of the 
EPA funds are expended internally on its own projects, which is 
very important, but so are the projects folks like us would do 
if we could find funding for them.
    What is needed is a specific setaside, specific 
allocations. It is crucial to stop the flow of toxic 
contaminants into the sea. It is easier to stop than global 
warming, but no less important.
    Thank you.
    [The prepared statement of Mr. Payne follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Whitehouse. Thank you, Dr. Payne.
    Senator Cardin will introduce our next witness.
    Senator Cardin. Let me introduce Dr. Mitchelmore. She joins 
us today from the University of Maryland Center for 
Environmental Science at the Chesapeake Biological Lab. Dr. 
Mitchelmore is an internationally recognized expert in aquatic 
technology, and her research experience includes investigating 
a broad array of toxics and their effects. Much of her research 
is directed at understanding the fate and effects of oil, 
dispersed oil, and oil dispersants.
    I am happy to be here to shed light on the impacts toxics 
are having on our coastal and marine ecosystems and to have her 
insight as we begin to investigate the impacts of the BP oil 
spill and clean up.
    I welcome Dr. Mitchelmore to our Committee.

STATEMENT OF CARYS MITCHELMORE, ASSOCIATE PROFESSOR, UNIVERSITY 
   OF MARYLAND CENTER FOR ENVIRONMENTAL SCIENCE, CHESAPEAKE 
                     BIOLOGICAL LABORATORY

    Ms. Mitchelmore. Thank you.
    Good morning, Chairman Cardin, Chairman Whitehouse and 
members of the Subcommittees. I am Carys Mitchelmore. I was 
asked today to provide insight into a few examples of the 
critical issues we face concerning pollution in our coastal and 
marine environments.
    I have been researching the impacts of pollutants on 
aquatic organisms for 15 years. There is irrefutable scientific 
evidence that our coastlines and oceans are being inundated 
with pollutants. Related to this, I would like to stress three 
major points, using two case studies, to illustrate these 
issues.
    First, limited toxicity data exists for many chemicals.
    Second, there are multiple sublethal ways in which 
contaminants can negatively affect organisms.
    Third, chemicals impact and alter delicate food webs.
    Since the industrial revolution tens of thousands of 
chemical pollutants have been released into the environment, 
ultimately making their way into the oceans. Through 
bioaccumulation and biomagnification, high levels of these 
chemicals are found in the bodies of coastal and oceanic 
organisms, even those remote from direct pollution sources. If 
these organisms are being polluted, so are we. They are 
sentinels of our own health.
    New chemicals are entering the marketplace daily, many with 
unknown or unpredicted environmental risks. Often very few 
toxicological evaluations are carried out before their use. 
Many formulations are proprietary, so predicting their 
potential effects is difficult. Chemicals that do end up 
showing environmental harm are removed from the market, yet the 
damage has already been done. Furthermore, they can persist in 
sediments, contaminating organisms for years to come.
    For example, the persistent bioaccumulative and toxic flame 
retardants, PBDEs, have recently been phased out. However, 
their effects will be felt for years to come. Fire retardants 
are important. They save lives, and so alternatives are being 
developed and used. But are these PBDE replacements any less 
toxic? We simply can't tell. Limited toxicological information 
for these proprietary products is available. In testing some of 
these alternative formulations, my laboratory has found that 
they bioaccumulate in fish, cause DNA damage, and are 
transformed into unknown chemicals.
    Perhaps it is time that we become more proactive and 
precautionary before releasing new products. We are constantly 
unraveling even for historic chemicals new and more subtle 
sublethal ways that they can influence a species' survival. For 
example, contaminants can depress an organism's immune system, 
making them vulnerable to infections. Organisms expend energy 
trying to remove contaminants from their bodies. This directs 
energy away from normal process. Repercussions of this include 
reduced growth, low quantities of offspring, or ultimately even 
death.
    Aquatic organisms have highly developed nervous, sensory 
and behavioral systems that are important for timing of 
migration, mating, finding food and predator avoidance. 
Chemical contaminants have been shown to affect these 
processes. Chemicals affect food webs. They biomagnify up the 
food chain. If contaminants kill species at the base of the 
food chain, then higher trophic level organisms, including 
ourselves, will struggle to find food.
    Unfortunate recent events in the Gulf have once again 
brought to the forefront issues pertaining to the impacts of 
dispersants and dispersed oil. What will the environmental 
consequences be of dispersant application? Currently, this is 
impossible to predict for many reasons.
    First, the sheer volume applied and continued use of 
dispersants is unprecedented. Additionally, dispersants are 
usually only applied to surface slicks.
    Second, dispersants contain mixtures, including proprietary 
chemical components and limited toxicological data is 
available. Specifically, there is a lack of studies addressing 
the potential long-term effects of dispersants and dispersed 
oil in organisms. What are the sublethal effects? Will there be 
delayed effects? How are organisms even exposed? Do dispersants 
make the oil more bio-available?
    My research exposing corals to low levels of Corexit 9500 
and dispersed oil demonstrated sublethal behavioral effects. 
There was a narcotic response resulting in the cessation of 
coral pulsing. Corals bleached. Ulcers were formed. And the 
tissues simply started to break down. Low dose, short-term 
exposures led to delayed effects and significant reductions in 
growth rates.
    If we had more information, we may be better prepared to 
deal with such disasters. Increased knowledge translates to 
better solutions. The more data and oil spill responder has 
regarding these effects, particularly on sensitive species of 
interest, allows them to better decide upon the appropriate 
trade off decisions to make.
    In summary, Chairman Cardin, Chairman Whitehouse and fellow 
Senators, new chemicals and formulations are released daily for 
which we have very little or no environmental toxicity data 
for. Multiple mixtures exist and chemicals interact in 
unpredictable ways. We are constantly unraveling even for 
historic chemicals new and more subtle sublethal ways in which 
detrimental effects occur.
    Chemicals directly or indirectly can alter the fine balance 
of food webs, alter ecosystem services, and the overall health 
of the ocean. Pollutant impacts our global economies, food 
sources, recreational activities, and even the sensitivity of 
our coastlines to erosion. Pollution cannot simply be treated 
as out of sight, out of mind, or that the solution to pollution 
is dilution.
    We are beginning to lose the memory of what an unimpacted 
coastline and ocean looks like, and that needs to change.
    Thank you.
    [The prepared statement of Ms. Mitchelmore follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Whitehouse. Thank you very much, Dr. Mitchelmore.
    Our next witness is Mr. Sam Waterston, who is widely known 
for his long running role as lawyer Jack McCoy in the 
television series Law and Order and his Academy Award-nominated 
portrayal of Sydney Schanberg in The Killing Fields.
    He is here, however, as a member of the Board of Directors 
for Oceana, an international non-profit organization focused on 
ocean conservation. It is an organization based here in 
Washington, DC, that works to protect and restore the world's 
oceans, with staff located in Alaska, California, New York, 
Oregon and Massachusetts, as well as international offices in 
Brussels, Madrid, Belize City and Santiago. The organization 
has more than 300,000 members and supporters from all 50 States 
and from countries all around the globe.
    Explaining his work with Oceana, Mr. Waterston has written, 
``I have loved the ocean all my life. As a New Englander, I 
have seen the nasty effects of fisheries collapses on the life 
of seaside towns. Scientists now warn us that unless we do 
something, the world is on a path to global fishery collapses 
by mid-century, a calamity of mind boggling proportions we can 
still avert. The time to act is now, which is why I am very 
happy to be working with an organization as effective as 
Oceana.''
    And as a Rhode Islander, I am proud to note that he learned 
his love of the sea in his boyhood and summers at Matunuck.
    So we are delighted to have you with us, Mr. Waterston; 
please proceed.

     STATEMENT OF SAM WATERSTON, BOARD OF DIRECTORS, OCEANA

    Mr. Waterston. Thank you. Thank you, Mr. Chairman.
    Thank you, Chairman Cardin.
    Thank you for the opportunity to provide testimony on ocean 
acidification. I am honored to be here before your 
Subcommittees to talk about an issue that frightens me. 
Acidification of our oceans is an impending environmental 
crisis that we must stop before it catalyzes the crash of ocean 
food webs and the end of ocean ecosystems as we know them.
    Before I talk about ocean acidification, I would be remiss 
not to mention the deepwater drilling disaster in the Gulf of 
Mexico. Our thoughts and prayers are all with the families of 
the 11 missing workers, and I hope for a speedy recovery of all 
those that were injured.
    As of today, at least 4 million gallons have spilled into 
the Gulf of Mexico. The leaks have not been stopped, and oil 
continues to gush into our oceans and flood our coastlines. 
Until this leak is stopped, oil will continue to harm life both 
in the ocean and on the shore. We need to end all new offshore 
drilling, including for exploration.
    The Gulf tragedy was created by an exploratory well, and we 
can now see that even exploration poses serious risks to the 
marine environment and coastal economies.
    Now, on to the reason you invited me, ocean acidification. 
Oceana, an international ocean conservation organization that 
works to protect and restore the oceans, is an organization 
that I believe in enough that I serve on its Board of 
Directors. Through my work with Oceana, I have been privileged 
to learn of the most recent science and data on our oceans, a 
lot of which you have been hearing about today.
    I have learned that an impending crisis is barreling toward 
us, acidification of our oceans. The burning of fossil fuels is 
increasing the amount of carbon dioxide in our atmosphere, and 
this is leading to global climate change. The carbon dioxide 
level in the atmosphere is currently nearly 40 percent greater 
than pre-industrial levels. At 387 parts per million now, it is 
up more than one-third of the levels that existed before the 
industrial revolution.
    Atmospheric carbon dioxide levels have not reached this 
amount in at least 800,000 years, and the 800,000 year figure 
only refers to the amount of time that we are able to measure 
with ice cores, and it may have been a much, much longer time.
    The oceans for the last 250 years have been a great sink, 
absorbing much of the carbon dioxide we put into the atmosphere 
through the burning of fossil fuels and deforestation, 
moderating and masking its global impact and returning bounty 
until now.
    While the oceans have been providing us this great service, 
they have been part of the solution to the climate change 
problem, but that important task is making them sick. Ocean 
acidification is a concrete and immediate reason to cap and 
reduce carbon dioxide emissions into our atmosphere. There is 
no other way to stop it, and the only way to reduce 
CO<INF>2</INF> is to shift from fossil fuels to a clean energy 
economy.
    If we continue on current trends, levels are likely to 
double pre-industrial levels by the middle of this century. If 
this occurs, scientists predict that we will see major changes 
to coral and other shell forming species and that if we 
continue business as usual, we will likely cause a mass 
extinction of corals by the middle to end of this century due 
to the combined threats of rising acidity and increasing 
temperatures.
    I am not talking about far into the future. It is a 
reality, and it is happening as we speak. Some corals on the 
Great Barrier Reef already have reduced growth rates by 14 
percent, and similar reductions in growth rates are being seen 
on reefs in Thailand and the Caribbean, and shellfish 
hatcheries in the Pacific Northwest have seen massive die-offs 
of juvenile oysters called spats. This is just an early warning 
sign in a story that we don't want to see through to the end.
    The carbon dioxide that is absorbed by the seas combines 
with seawater to create an acid which changes the acidity of 
the oceans, and that causes serious mischief for all the kinds 
of sea life, beginning with corals and including swimming 
snails, my favorite little animal, the pteropod, and continuing 
on through shellfish. A chain reaction begins.
    Why does this matter? Because animals like pteropods form 
the base of the food web. Whales and salmon need pteropods for 
dinner. Fish need coral for habitat. As with any unwanted chain 
reaction, the thing to avoid reaching is critical mass, where 
the problem outruns any effort to control it.
    This particular chain reaction isn't getting the right kind 
of attention. And with 1 billion people relying on the oceans 
for their primary source of animal protein, a collapse of the 
ocean food web would have major and dire consequences for 
humans.
    What can we do? We must cap and reduce carbon dioxide 
emissions, period. It is simple chemistry. The more carbon 
dioxide absorbed by the oceans, the more acidic our oceans will 
become. Congress already recognized the importance of this 
issue and passed the Federal Oceans Acidification Research and 
Monitoring Act as a first step to focus Federal agencies on how 
acidification will impact our oceans and coastal communities. 
This program needs to be fully funded and implemented.
    Congress also needs to preserve the Environmental 
Protection Agency's authority to address and regulate carbon 
dioxide. And we need to end our reliance on fossil fuels and 
shift to clean renewable energy.
    To start, we need to end all new offshore drilling now. The 
risk to coastal communities and our oceans is too great, and 
accidents clearly do happen. But at the end of the day, the 
only way we have any hope to address ocean acidification is to 
reduce carbon dioxide emissions. Regardless of whether you 
think the climate is changing or whether or when or at what 
speed it will impact the United States, carbon dioxide is 
impacting our oceans now. It is occurring. It is simple 
chemistry, and Congress needs to step in and do something about 
it.
    Thank you very much.
    [The prepared statement of Mr. Waterston follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Whitehouse. Thank you very much, Mr. Waterston.
    Our final witness on the panel is John T. Everett. Dr. 
Everett is the President of Ocean Associates, a company that 
provides consulting services on oceans and fisheries policy and 
sustainability, ecosystem and fisheries relationships, and 
global climate change and its impacts at the global and local 
level on fisheries and oceans.
    He worked 31 years in 13 positions in NOAA, National 
Marines Fisheries Service, as a researcher, analyst and manager 
in fisheries and oceans programs, until recently holding the 
post of Chief of the NOAA Fisheries Division of Research. He 
has chaired or co-chaired several scientific analyses by the 
Intergovernmental Panel on Climate Change and has served on the 
National Academy of Sciences Panel on Ecosystem Indicators of 
Climate Change. Since its inception in 1999, Dr. Everett has 
also been Manager and Chief Editor of the U.N. Atlas of the 
Oceans.
    We are delighted to have him here.
    Dr. Everett.

           STATEMENT OF JOHN T. EVERETT, PRESIDENT, 
                     OCEAN ASSOCIATES, INC.

    Mr. Everett. Mr. Chairman and members of the Committee, 
thank you for inviting me. My views are mine alone. My approach 
is a product of my education and work for NOAA and IPCC that 
you have already reviewed.
    I am also president of Ocean Associates, as you said, which 
is an oceans and fisheries consulting firm with 70 people in 
six States. I have a Web site, www.ClimateChangeFacts.info to 
share information.
    The Gulf oil spill and President's Cancer Panel point out 
the immediate threats to our sea life and ourselves from oil or 
chemicals. But the oil damage will eventually heal. Better 
procedures will be employed, and this oil will be recycled and 
assimilated.
    The flow of chemical materials into our waters is another 
matter. There are too many insidious contaminants causing 
genetic harm and poisoning our marine birds, turtles and 
mammals and seafood. EPA's focus should be to stop this flow 
and clean it up.
    I respect the view of Mr. Waterston. He is not alone. 
However, I have some different views. If CO<INF>2</INF> 
increases beyond this century, there might be changes in the 
mix of marine plants and animals, but it will mostly leave 
humans without impact. In contrast, contaminants create only 
losers.
    My statement on acidification focuses on marine life's 
ability to make shells and whether there will be less to eat at 
the base of the food chain. These concerns are from scientists 
who believe the IPCC scenarios of the early 1990s will 
dangerously increase acidification. Other scientists believe 
these scenarios are obsolete since the rising fuel cost is 
slowing usage, CO<INF>2</INF> shows no acceleration, and the 
Earth's ability to absorb it has not diminished.
    With all the hype, many people are afraid of the acid in 
the oceans. Oceans are not acidic except in natural cases such 
as volcanic events, in some parts of estuaries in late summer 
and in very deep waters. We are talking about an increase in 
acidity of two times. In contrast, a puddle of rainwater or 
handful of snow is over 100 times more acidic than the oceans.
    Many lakes are 10 or more times acidic, and 70 percent of 
Maine's are actually acidic, yet they teem with many of the 
kinds of life that are in the oceans. Lake research shows that 
acidity is unrelated to productivity. These are important 
clues.
    Americans will not dissolve when they jump in the water, 
just as when they jump in a lake in Maine. And seafood is safe 
to eat. It may be hard to believe, but many people are really 
concerned about the acid.
    Four factors shape my views. First, research shows pluses 
and minuses among shelled plants and animals. Ries found that 
crabs, shrimp and lobsters build more shell with elevated 
CO<INF>2</INF>. Some other shelled animals and algae increase 
shell growth at moderate levels, but slower at higher levels, 
while hard clams and corals slowed shell formation at very high 
levels. Soft clams and oysters slowed much sooner, while 
mussels did not change at any level.
    None of the shells dissolved until the highest levels, but 
grew slower at very high CO<INF>2</INF>. Miller found shells of 
other oyster species increased along with CO<INF>2</INF>, and 
shells of other animals did not dissolve. Iglesias-Rodriguez 
found major growth benefits to an important shelled algae, 
essentially a plant.
    Second, the Earth has been this route before. The oceans 
have been far warmer, colder and more acidic than is projected. 
Marine life endured CO<INF>2</INF> many times higher and 
temperatures that put tropical plants at the poles or covered 
our land by thick ice. The memory of these events is in the 
genes of all surviving species.
    Virtually all ecological niches have always been filled. If 
there were no corals, clams, oysters or shelled plankton when 
CO<INF>2</INF> was double or triple, I would be concerned. The 
opposite is true. If we examine mass extinctions, we find they 
were not caused by double or triple CO<INF>2</INF>, if it had 
anything to with extinctions at all.
    Third, IPCC found no observational evidence of ocean 
changes from acidification. And well designed research suggests 
that organisms' responses will be variable and complex. How 
individual organisms will respond is not known.
    Last, contrary to all the information, natural oceanic 
changes are greater and faster than those projected. Warming, 
cooling and pH changes are a fact of life, whether over a few 
years in an El Nino, over decades as in the Pacific 
oscillation, or over a few hours in a burst of upwelling or a 
storm that brings cold acidic rainwater to an estuary or 
shallow coral reef.
    Despite severe and rapid changes, the biology adapts 
rapidly. The .01 change in pH since 1750 and the 1 degree 
Fahrenheit rise since 1860 are but noise in this rapidly 
changing system. Whether changes occur over days or millennia, 
some species flourish while others diminish.
    I see no overall acidification harm to marine fisheries, 
mammals, turtles or other animals. More research is needed to 
determine how the response of individual organisms will 
reverberate throughout food webs and ecosystems. The real and 
immediate threat lies in the chemicals that flow down our 
rivers.
    Second, we need to improve oil drilling and transport so 
disaster cannot happen. It may be as simple as increasing 
redundancy of valves, hulls, navigation traffic controllers or 
captains. As my daughter said, ``Dad, ocean acidification is 
not a problem for the oysters. They will all be dead from the 
oil.''
    Thank you.
    [The prepared statement of Mr. Everett follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Whitehouse. Thank you very much, Dr. Everett.
    I wanted to begin with two photographs from Rhode Island. 
This first photograph was taken in South Kingstown this 
weekend, a whale washed ashore along the shoreline. And this 
whale washed ashore in Narragansett in 2008.
    Dr. Payne, based on your research, what can you guess, and 
I know you don't know specifically about these exact whales 
themselves, based on the extent of the contamination that you 
are finding, what is your guess as to what the status is of 
these whale bodies in terms of their toxicity?
    Mr. Payne. I am not sure of the species. I am sorry. I 
can't see the pictures very well, but my guess would be that 
when you find a single animal----
    Senator Whitehouse. A minke whale on your right and a 
humpback on your left.
    Mr. Payne. Oh, that is a humpback. I couldn't see. OK. My 
guess would be that when you find a single whale stranded like 
that, it is less likely to be some event that would be caused, 
for example, by red tide or something of that nature. But I 
would imagine that if you looked at any of these whales, the 
minke whale on the right, of course, feeds on a lot of fish. 
Most people think it is only on smaller species. If you get up 
to a species which is feeding very high on a food chain, you 
end up with higher concentrations.
    I just want to give a quick example. If you had a pound of 
swordfish sitting in your plate, and you were about to eat it, 
the question is how many pounds did it take of diatoms at the 
bottom to make that pound of swordfish? Well, swordfish, or at 
least many of them, live at as much as the sixth level of a 
food chain, so that means you get a multiplication times 10 six 
times over. So 10 times 10 times 10 times 10 times 10 times 10 
times 10. That is a million.
    So the question is answered by, it is a million pounds of 
diatoms to make that one pound of swordfish on your plate. A 
million pounds is 500 tons. Five hundred tons is 50 10-ton 
truckloads. So now you park 50 10-ton trucks in a row and you 
tie your liver to one end of it, and you detoxify all of the 50 
10-ton loads of these diatoms with your liver. And what's what 
you do when you eat a pound of swordfish, like it or not.
    And what happens to these substances, they remain in your 
body. And if you have a pound tomorrow, you end up with higher 
concentrations. These are long lived animals, both of them, so 
the result is that they undoubtedly have high concentrations of 
a series of chemicals in their body. Whether that is what put 
them on the beach, I don't know. It could have been, but I 
don't know.
    Senator Whitehouse. I am not suggesting that is the reason, 
but I think your evidence shows that no matter where you go, 
whales that feed at the top of the food chain carry enormous 
loads of toxins in their bodies, even in the farthest corners 
of the globe.
    Mr. Payne. Absolutely right.
    Senator Whitehouse. How does that fact that whales are 
mammals, since they lactate, bear on this problem?
    Mr. Payne. Thank you. Yes, that tenderest of all mammalian 
acts, a mother nursing her babe, actually what she is doing is 
dumping her lifetime's accumulation of fat soluble PBTs or POPs 
into her babe. And the result is that the infant is no longer a 
sort of pure creature. It starts with its mother's toxic load. 
It adds a lifetime of its own toxic load and dumps the double 
dose into its baby, which receives a lifetime of its own toxic 
dose and dumps a triple load into its baby.
    Humans can avoid that bullet by in fact feeding formula to 
their infants. That is not an option for a whale. The result is 
that if you go long enough with these substances which last for 
longer than the lifetimes of whales, you can expect actually 
extinction of species that eat high on food chains.
    Senator Whitehouse. So it bioaccumulates not only in the 
body of an individual whale as it continues to swim and eat and 
age, it will also bioaccumulate in the species because 
lactation passes it on to the next generation in an upward 
ratchet of poisoning.
    Mr. Payne. Right. That is true. Any animal that you eat 
high on a food chain is going to give you these extraordinarily 
high concentrations of contaminants.
    Senator Whitehouse. And how do flame retardants get there?
    Mr. Payne. I wish we had our data on flame retardants from 
the trip around the world. We expect it this week sometime. It 
just hasn't come in, the analyses. But they are also climbing 
food chains, and one would expect them to be therefore 
contributing problems to humanity. I think it is over 90 
percent of human females have flame retardants in their bodies.
    And of course, part of the problem is when you lie on a 
bed. Flame retardants, as you know, as used in all sorts of 
fabrics for preventing fires, and a good thing to prevent 
fires. But when you lie with your head on a pillow which is 
soaked in it, or the foam of the pillow is, you are actually 
breathing all night in these substances. And therefore, you are 
loading your system with them.
    Senator Whitehouse. Senator Cardin.
    Senator Cardin. Wow. This has been a fascinating panel, but 
this has me now wondering in talking to my wife about finding 
out the seafood we eat, what part of the food chain they 
consumed, which is not on our labels. It is something that just 
has us all thinking about it.
    The more you realize the depth of information we have and 
we don't have about the risk factors in the oceans, it really 
does point out two facts. First, what Mr. Waterston said, and 
that is prevention would be the best course here. Global 
climate change and greenhouse gas emissions, that needs to be 
dealt with so that acidification is at least slowed down. That 
is issue No. 1.
    No. 2, stopping further exploration of oil offshore would 
be No. 2.
    And Dr. Everett, I appreciate the comment you said about 
redundancy, but let me just remind you that the oil rig in the 
Gulf of Mexico had redundancies in it as far as the shut-off 
valves, several redundancies in it. And the risk factor was 
considered to be minimal that it didn't require extra scrutiny 
on the regulators.
    So stopping further exploration is clearly in our best 
interest. It is in our best interest for an energy policy, as 
well as for an environmental policy.
    And if you want to speculate on this, fine, but I think 
about what would have happened if we would have had the 
comparable amount of oil spill 50 miles off the coast of Rhode 
Island or 50 miles off the coast of Maryland. For those of you 
who say that cannot happen, let me remind you that site 220 is 
50 miles off the coast of Maryland. And there were plans to 
start that as early as 2011 or 2012.
    Now, that is not going to happen as a result of what 
happened in the Gulf of Mexico, but it could have happened. And 
if would have had redundancies, I am sure, in its process, but 
there could have been a spill of comparable number. What I find 
surprising is that the Gulf of Mexico spill if it lasts for 
another month, it will surpass Exxon Valdez. And Exxon Valdez 
was number 34 on the all-time list of spills. So there have 
been horrific spills that are having generational impacts on 
the quality of our oceans.
    I don't even want to think about the impact it would have 
on the Chesapeake Bay. I still worry about if the Gulf of 
Mexico spill gets into the currents it could very well come up 
the East Coast of the United States. We don't know. We don't 
have that.
    So I guess my first question, if any of you would care to 
respond, is I am not satisfied we have enough information. I 
really worry about these dispersants that are being used, not 
that we have any choice, because I am not sure we have any 
choice, but to try it.
    We never tried using a dispersant at such a depth, to try 
to disperse the oil before it hits the surface, and that is 
what they are trying to do, and EPA is very frank with us 
saying we don't know whether it can work. And second, we don't 
know the impact it has on our environment.
    Am I right to be concerned that we might be hiding the true 
damage done to our environment from this spill in an effort to 
mitigate it, but then not to let the public know exactly what 
damage has been caused as a result of the use of these oil 
dispersants?
    Any of you care to speculate on that?
    Ms. Mitchelmore. Sure. I can chime in and add to what I 
said earlier. It is going to be a while before we know the 
potential environmental effects of the dispersants. As I 
mentioned earlier, there are unprecedented volumes of this 
dispersant that are being applied in the Gulf right now. And in 
addition, the way that the dispersant is being used potentially 
under consideration. Dispersants are usually applied on the 
surface oil slicks, and they are approved for open ocean use 
because of the huge volume, for example, that they dilute into. 
They are pre-approved for use in open oceans, in waters greater 
than 10 meters depth, more than 3 nautical miles from the 
shore, for example, because of the dilution effect.
    So by putting this right on the seabed, it is unknown, for 
example, what the consequences of that be. First of all, with 
any dispersant application, effectiveness has to be determined. 
Not all oil can be dispersed. It depends on temperature, 
weather parameters. But ultimately, we are taking a normal top-
down approach to potentially looking from the bottom up now. 
That seabed, as it is so deep, wouldn't have been potentially 
exposed to a dispersed oil reaching those depths. It would have 
gone sideways and diluted out, but of course there is this 
continued oil and this continued dispersant use to consider as 
well.
    Senator Whitehouse. I know that Mr. Waterston has to leave, 
and before he does I just wanted to ask him for a closing 
comment by him. We are a terrestrial species. We focus a great 
deal of our attention on the land, the earth around us. We call 
our planet Earth, even though it is far more water than it is 
earth. We talk about climate change and global warming, but the 
worst effect for humankind of the carbon pollution of our 
planet may very well prove to be ocean acidification.
    What can we do? And from our perspective, let me add one 
final point, we see reports coming back from far away oceans 
where most of us never have the chance to go. Dr. Payne brings 
them back from the remote corners of the globe. Scientists go 
out and sample and bring them back from the remote corners of 
the globe. And they are our news source. They are our 
reporters, our scouts, our sentries as to what is happening to 
this great resource of ours.
    Then we come to Washington and big industries go right to 
work, as they are in the climate change debate, saying don't 
worry; that is just science; there is some doubt, attacking the 
process, attacking the people, doing everything they can to 
maintain their economic status as exploiters of the resource; 
in the case of climate change, free polluters at all of our 
expense.
    What is your advice to us on how we can best try to get 
more attention paid by our terrestrial bi-ped species to these 
oceans so that we are better attuned to hear their warnings 
before it is too late?
    Mr. Waterston. It is a huge question, and I don't have a 
ready answer except to say that we need to change our minds to 
recognize the obvious fact that life emerged from the sea, and 
it depends on the sea. And that there is no escaping the fact 
that what we do to the oceans comes back to bite us.
    Oceana's contention all along--its reason for being, 
really--is to argue that we are taking too much good stuff out 
and putting too much bad stuff into the oceans and that it is 
having an immediate effect on life as we know it, the life that 
we enjoy, on jobs, and on food that a billion of us depend on.
    By the way, the United States is one of the countries that 
will be most impacted by a drop in the availability of seafood 
because we eat so much of it. So this is an immediate issue for 
us. And making the connection is all our job, but it sounds to 
me as if you are way ahead of me in expertise. So I am glad to 
be here to be able to point at this, and I think it is high 
time we all paid more attention.
    Senator Whitehouse. Thank you for being here. I understand 
you have scheduling requirements, and it is 11:30.
    Mr. Waterston. I do.
    Senator Whitehouse. Senator Cardin.
    Senator Cardin. Let me thank the entire panel. I found this 
very, very helpful.
    Dr. Everett, I had a question for you, but you might have 
answered it in your last sentence. In preparation for today's 
hearing, I was very intrigued with your daughter's quote that 
you ended the testimony with, the quote that said, ``Ocean 
acidification is not a problem for the oysters. They will all 
be dead.''
    But then in your verbal presentation, you said from oil. I 
don't know whether that was in her quote or not, and I will 
give you a chance to clarify.
    Mr. Everett. I wanted to be clear why they would be dead, 
and she was talking about them being oil covered, and they 
would die from the oil.
    Senator Cardin. Because my point and the question I would 
at least put for the record is that the oyster issue is a very 
sensitive issue for all of us because we are doing everything 
we can to get the oyster back. And by the way, we are making 
progress in Maryland. I heard in Rhode Island you are also 
making progress.
    We are seeing some very positive signs of the programs that 
we have in place and the work that we are doing that we are 
seeing a larger oyster crop. It is very tentative and we are 
working very hard. It is not the Asian oyster. This is going to 
be native in the Chesapeake Bay.
    But there are multiple problems here. Acidification is a 
problem. The sediments that are going into the bay are 
problems. But if we say that one isn't causing the reductions, 
we will never get to an answer. We have to deal with all these 
issues, including acidification. We know it is not good.
    So I guess my point is that I think your testimonies here 
point out, first, we need more science. We need better 
information. And I know it is difficult because the oceans are 
so vast. We need better information.
    I think, Dr. Payne, your examples that you brought back is 
very, very valuable to us, and we thank you for that. The 
principal responsibility rests with governments. Unfortunately, 
the oceans are multi-jurisdictional so there is not one 
country. It is an international responsibility to deal with the 
science, and we need to have a level of understanding so that 
we have a coordinated strategy.
    We are starting to get there today on global climate 
change, and that is good. And the United States, I think, will 
take on leadership which was lacking during the last 8 years. I 
think we will be in the forefront under President Obama and 
this Administration, but we need to do the same thing with the 
oceans.
    What I take out of this hearing is that we need to have a 
stronger international leadership to deal with the complexities 
of what is happening in our oceans. And the sooner the better 
because this multiplies quickly. And if you don't get a handle 
on it, it is going to be more challenging for the future.
    Mr. Chairman, this hearing was Senator Whitehouse's 
recommendation that we start to develop a record here in this 
Committee and this Senate and this Congress on this issue 
because it is going to be with us, and we need to develop a 
strategy. I just want to compliment our Chairman for bringing 
you all together.
    Senator Whitehouse. Well, thank you, Chairman Cardin. It 
has been such a pleasure to work with you and your office in 
preparing this hearing. It has been a true team collaborative 
effort. And as I mentioned earlier to the witnesses, there is a 
bit of a rivalry between the two of us as to who has the more 
oceanic ocean State, but that did not prevent us from working 
well on this, and he has been a great friend.
    I have just a few additional questions before the hearing 
concludes. I would like to ask Drs. Mitchelmore and Everett to 
comment a little bit on the chemical pollution that is flowing 
into the oceans.
    You had a rather stunning phrase in your testimony, Dr. 
Mitchelmore, where you said that the potential for a ``toxic 
soup of unknown effects which cannot be predicted even if the 
individual chemical constituents are known,'' as a result of 
the multiplicity of chemicals that flow into the sea.
    And Dr. Everett, you said the ``flow of chemicals materials 
into our waters is another matter. There are too many insidious 
contaminants entering our estuaries causing genetic harm and 
poisoning our birds, turtles and seafood. These contaminants,'' 
you continue, ``create only losers and directly impact us as 
well.''
    I would be interested in hearing first from Dr. Everett and 
then from Dr. Mitchelmore a little bit on the extent to which 
the interaction between multiple chemicals creates an 
independent condition or an independent risk aside from the one 
single chemical. We usually tests things chemical by chemical. 
If you could comment on that, if that is an area you have 
looked at, I would appreciate it. And then to have Dr. 
Mitchelmore fill in a little bit more on her testimony.
    Mr. Everett. I am particularly sensitive to the chemicals. 
I grew up as a commercial fisherman, and even after having my 
master's degree I continued fishing. I was in the Fairhaven, 
Massachusetts, side of the New Bedford Harbor, which is a 
Superfund site. So we knew well what was in all the products 
out there and that they didn't stay where they were. They 
didn't die of old age. And we knew that there was something 
really bad about this stuff.
    It is all, I think, throughout the different chemicals, 
they interact. If there is something that attacks the liver, 
there might be something attacking some genetics. And it all 
goes together. There is no one cause in any of this. And it is 
important to get them stopped. I think that this is the real 
harm, and there are a lot of people who are very concerned 
about it, and legitimately so, as we heard.
    That is one part of everyone's testimony that I will agree 
with.
    Senator Whitehouse. So the toxic soup notion of either 
chemical interactions working against the environment or its 
effects on a particular creature accumulating from one chemical 
harming them here to one chemical harming them there, it is a 
very real problem.
    Mr. Everett. Yes. I worked in the National Marine Fisheries 
Service, and one of the last things I did was getting together 
the status of the marine habitats. The report is called Our 
Living Oceans. I worked on that as a contractor after I left 
the Fisheries Service. It is a very important document, and I 
am concerned about the contaminants through all aspects of the 
life passing on genetic defects and everything. It is not good 
stuff.
    Senator Whitehouse. And you agree with Dr. Payne that some 
of these contaminants will not only bioaccumulate in the 
individual creature, but for mammals through lactation they 
will poison the next generation in an increasing cycle of 
chemical loading?
    Mr. Everett. We know that when the infant is growing that 
it is not good to be giving them contaminants. Not only will 
they accumulate, but they will cause damage from the first 
moment.
    Senator Whitehouse. Dr. Mitchelmore.
    Ms. Mitchelmore. Thank you, Senator. Those are excellent 
questions.
    We know very well that chemicals can interact with each 
other, and sometimes that is in unknown ways. We have learned 
this from the medical field, for example, when we go to the 
doctors and the pharmacist. They carefully check interactions 
between different prescriptions, especially if you are taking 
more than one item.
    In some cases, for example, taking drug A with drug B can 
result in negative consequences. The combination may even be 
fatal. And yet if you took those drug A and drug B singly and 
at different times, using exactly the same dose, you would have 
no adverse effect.
    Well, this phenomenon is called synergism, and this analogy 
holds true for the organisms that are now being exposed to a 
barrage of multiple contaminants in the coastal and ocean 
systems.
    And chemicals not only interact with other chemicals, they 
also interact with environmental parameters. For example, 
temperature can potentiate the effect of a chemical either by 
direct chemical means or by the temperature impact on that 
organism and how that organism can now deal with that chemical.
    And another point is that many chemicals actually look 
similar to a lot of natural chemicals that are within us. And 
this is one of the highlights for a lot of these emerging 
contaminants of concern right now. Many of them look just like 
our natural thyroid hormones. And so unsurprisingly, they are 
affecting the thyroid hormone system, and that is critical for 
development, and especially in the young.
    You brought up about the maternal transfer issue. And it is 
really critical for these young organisms. They haven't got the 
fully developed systems that can break down these chemicals 
that we have in our bodies. And so these young are very 
sensitive often to these chemicals.
    The maternal transfer is not just through breast milk. It 
is also through placental transfer, and it is particularly 
critical for other higher trophic level organisms like reptiles 
that put all of their fat reserves which contain these 
persistent chemicals into the yolk which their developing 
embryo are exposed to.
    Senator Whitehouse. So it works for eggs as well as for 
lactation in the same way.
    Ms. Mitchelmore. Yes, very high levels of PCBs, PBDEs have 
been found in reptile eggs.
    Senator Whitehouse. Thank you.
    Dr. Payne, looking at the variety of whale species that you 
have studied for many, many years, what is the general 
prognosis for our big marine mammals? Does it differ species by 
species? Are there some that are you think quite safe in this 
environment compared to others that at very grave risk? And 
what do we need to be prepared for if we don't change our ways?
    Mr. Payne. If you are looking at the various species, any 
toothed whale is likely to be eating higher on the food chain 
than at least some of the baleen whales. But everybody seems to 
think that baleen whales feed just on krill or on plankton, 
that which would be lower on food chains, but no. Minke whales, 
for instance, feed on huge quantities of fish, and Japan has 
exhausted itself trying to demonstrate that to the rest of the 
world in its false argument that these minke whales are 
actually out-fishing humans for fish. The examples they have 
come up with are completely unconvincing.
    But the other species, for instance, fin whales are in 
Norway called by a name which translates out to herring whale, 
because in fact they eat so much fish. So those animals that 
eat fish are high on food chains.
    And what is the future for all of them? I think it is 
extinction. When I first made this suggestion about 8 or 10 
years ago, I received a great deal of criticism, particularly 
from a fellow I have worked with over the years who later came 
to me and apologized and said I'm sorry; no, it is right; there 
is no other way out.
    And I don't think there is unless we do something about it. 
And if we don't do something about it, we will ultimately put 
ourselves out of business in terms of being able to sell fish 
from the sea. They will be too polluted to sell.
    So I think it is an incredibly important issue, and as I 
say, you could make a fairly tight suggestion that it was the 
biggest public health issue humanity has ever faced. A billion 
people will be affected directly by it since they get their 
principal source of animal protein from fish or from seafood. 
And that is a number about five times greater than the entire 
number of people whose lives were shortened by plague. So you 
think--it is probably a big problem.
    Senator Whitehouse. Thank you.
    A vote has begun, so I will conclude this hearing. I want 
to thank all of the witnesses. It has been extremely helpful. I 
want to just briefly thank Brad and Kata and Anna Marie of my 
staff who went to a lot of work to put this hearing together.
    I think it is particularly important for EPA to be alert to 
the damage that both carbon pollution and chemical pollution 
are likely causing or are causing in our oceans. And I think it 
is equally important that the Environment and Public Works 
Committee be alert to that and attuned to it, and that it be an 
important part of this Committee's focus.
    So today was for me an important hearing because it brought 
this issue before our Committee through the two Subcommittees, 
through Senator Cardin's Subcommittee and mine, in a way that I 
hope will be lasting for the reasons that Dr. Payne has said, 
and in fact Dr. Everett an Dr. Mitchelmore as well. We are at 
grave risk of the chemical contamination to our oceans and the 
seafood and species contained therein.
    So I will keep the hearing open for an additional week for 
any materials that anybody wishes to submit for the record of 
this hearing. I will take the opportunity to ask a few 
questions for the record of the witnesses, and hope that you 
can get back with us. My staff will send them directly to you.
    I am the only one here so I don't have to sign off with 
anyone. I will just call the hearing to an end, but I am very, 
very grateful to all of the witnesses for how helpful they are 
and look forward to working with you further.
    We are adjourned.
    [Whereupon, at 11:48 a.m. the Subcommittees were 
adjourned.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Good morning. We are here today to examine EPA's work to 
monitor and reduce environmental risks to our marine and 
coastal ecosystems. This subject is particularly timely given 
the challenges we currently face in responding to the oil spill 
in the Gulf of Mexico, though I will save most of my comments 
on that terrible event for the hearing this Committee is 
conducting this afternoon. I look forward to hearing more about 
EPA's work to protect ocean health as well as the private-
public partnerships that exist to understand and reduce risks 
to this important ecosystem.
    Our oceans are a precious resource, and we should take 
appropriate steps to ensure they are protected. Though I hail 
from Oklahoma, I have a particular personal interest in the 
ocean and coasts.
    We know that many things affect the health of oceans and 
coastlines--in some cases, human activities, and in some cases, 
natural processes. So, one of the most important things I hope 
to learn today is the state of the science on oceans. I hope 
the witnesses will discuss what we really do, and perhaps most 
important do not know about oceans. Fully understanding all the 
circumstances that impact ocean health will help us make 
informed decisions about how to better protect these important 
natural resources as well as the communities and economies that 
depend on them.
    We will hear today about how certain toxins affect oceans. 
Much has been done already to minimize and mitigate the most 
potent of these toxins, so I hope that the witnesses will 
acknowledge and make recommendations building on this progress.
    We will also discuss the concept of ocean acidification. 
Without question, the pH of oceans impacts the creatures that 
live there. But there is scientific uncertainty as to whether, 
in general, oceans are actually becoming more acidic, and if 
so, what that means and what is the cause. We must be certain 
that we have a full picture of all the outside sources and 
natural cycles that affect the balance of the ocean.
    To help us understand the full picture, we will hear from 
Dr. John Everett, a former scientist with the National Oceanic 
and Atmospheric Administration, who's now a consultant on ocean 
issues, about his studies that suggest the oceans will remain 
alkaline even as they absorb more carbon dioxide. I look 
forward to his testimony and his broader points that open 
minded research is needed to keep this issue in perspective.

    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Additional material submitted by Ocean Alliance and 
Transocean Holdings, LLC, is available in the Committee files.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
